    June 8, 2006




Financial Management
Controls over Abnormal Balances in
Financial Data Supporting Financial
Statements for Other Defense
Organizations
(D-2006-092)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
CFO                   Chief Financial Officer
CLRS                  CFO Load Reconciliation System
CMR                   Cash Management Report
DoD IG                DoD Inspector General
DFAS                  Defense Finance and Accounting Service
FACTS II              Federal Agencies’ Centralized Trial Balance System II
FMR                   Financial Management Regulation
ODO                   Other Defense Organizations
PBA                   Proprietary to Budgetary Adjustment
SGL                   Standard General Ledger
                             INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                              June 8,2006
MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Controls over Abnormal Balances in Financial Data Supporting
         Financial Statements for Other Defense Organizations (Report
         NO. D-2006-092)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments provided by the Director, Defense Finance and Accounting Service
Indianapolis to Recommendation B were nonresponsive. We request additional
comments fiom the Director, Defense Finance and Accounting Service Indianapolis on
Recommendation B by July 10,2006.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorized official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Marvin L. Peek at (703) 325-5777 (DSN 221-5777) or Mr. Scott S. Brittingham at
(703) 325-6104 (DSN 221-6104). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                                By direction of the Deputy Inspector General for Auditing:



                                         Paul mranetto, CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
               Department of Defense Office of Inspector General
Report No. D-2006-092                                                        June 8, 2006
   (Project No. D2005-D000FA-0262.000)

             Controls over Abnormal Balances in Financial Data
                Supporting Financial Statements for Other
                           Defense Organizations

                                 Executive Summary

Who Should Read This Report and Why? Personnel at Defense Finance and
Accounting Service (DFAS) and accounting offices supporting the Other Defense
Organizations, and users of the DoD Agency-wide financial statements would benefit
from the results of this audit. DFAS should use the results of this audit to improve
processes related to identifying, disclosing, and correcting abnormal balances in trial
balances supporting the financial statements for Other Defense Organizations. Process
improvements will increase the accountability and reliability of the financial statements
for the Other Defense Organizations.

Background. The Audited Financial Statements Division, DFAS Indianapolis provides
financial reporting support for the Other Defense Organizations General Funds, a
reporting entity on the DoD Agency-wide financial statements. Previous DoD Inspector
General audits of the DFAS Indianapolis process for compiling and consolidating the
Other Defense Organizations financial statements detected weaknesses in the
identification, disclosure, and correction of abnormal balances. We performed this audit
to assess the effectiveness of corrective actions taken by DFAS Indianapolis and the
accounting offices in response to prior audits reports.

Results. The trial balance submissions used by DFAS Indianapolis to prepare the Other
Defense Organizations financial statements contained unexplained abnormal balances.
Specifically, trial balances submitted for inclusion in the third quarter FY 2005 Other
Defense Organizations Financial Statements contained an absolute value of $21.3 billion
in abnormal balances. Of the 15 trial balance submissions with abnormal balances, 14
did not include the required footnotes explaining the abnormal balances. As a result,
DFAS Indianapolis did not have information necessary to assess the quantitative impact
of anomalies in the data supporting the Other Defense Organizations financial statements
or disclose the qualitative nature of the anomalies where appropriate. Explanatory
footnotes will decrease the amount of time DFAS Indianapolis personnel need to invest
in followup and resolution of trial balance submissions. DFAS Indianapolis should
revise and improve guidance to the accounting offices supporting the Other Defense
Organizations that requires them to provide explanations in the footnotes on the quarterly
trial balance submissions. (See finding A for the detailed recommendation.)

DFAS Indianapolis did not disclose in the notes to the financial statements unresolved
and uncorrected abnormal balances in the trial balance submissions and the Reports on
Budget Execution supporting the third quarter FY 2005 Other Defense Organizations
Financial Statements. In addition, DFAS Indianapolis did not disclose the nature of
accounting entries made during the compilation and consolidation process to adjust and
eliminate abnormal balances in the trial balances and the Reports on Budget Execution.
As a result, the notes to the third quarter FY 2005 Other Defense Organizations Financial
Statements were inaccurate and misleading and failed to show the extent of potential
problems associated with data in the financial statements. DFAS Indianapolis should
establish and implement a process to identify abnormal balances in the financial data
supporting the Other Defense Organizations financial statements and disclose the
financial statement disposition of those anomalies. (See finding B for the detailed
recommendations.)

Management Comments and Audit Response. The Director, DFAS Indianapolis
agreed to revise the existing year-end guidance and establish separate quarterly guidance
to specifically require accounting offices to provide explanatory footnotes for all
abnormal balances in the quarterly trial balance submissions. The comments were
responsive.

The Director, DFAS Indianapolis nonconcurred with the recommendation to establish
and implement a process to identify abnormal balances in the financial data and to
disclose the financial statement disposition of those anomalies. The Director stated that
DFAS Indianapolis uses the DoD Financial Management Regulation guidance as a metric
for the identification and disclosure of abnormal balances. However, the DoD Financial
Management Regulation materiality does not extend to the disclosure of abnormal
balances. In addition, without determining the cause or adjustment necessary to correct
an abnormal balance, the materiality of an abnormal balance as it relates to the Other
Defense Organization financial statements cannot be measured. The comments were not
responsive. We request that the Director, DFAS Indianapolis reconsider his position and
provide additional comments by July 10, 2006.

See the Finding sections for a discussion of management comments and the Management
Comments section for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                                                      i

Background                                                            1

Objectives                                                            1

Managers’ Internal Control Program                                    2

Findings
     A. Unexplained Abnormal Balances in Trial Balances                3
     B. Procedures for Identifying and Disclosing Abnormal Balances    8

Appendixes
     A.    Scope and Methodology                                      21
     B.    Prior Coverage                                             22
     C.    Other Defense Organizations                                23
     D.    Report Distribution                                        25

Management Comments
     Defense Finance and Accounting Service                           27
Background
    Other Defense Organizations. Other Defense Organizations (ODO) cover the
    activities funded with Treasury Index 97 funds (also referred to as
    Department 97). The ODO financial information is aggregated into the ODO
    General and Working Capital Funds. The Office of Management and Budget
    does not require DoD to prepare audited financial statements for the ODO
    General and Working Capital Funds. However, ODO General and Working
    Capital Funds represent 2 of the 11 reporting entities in the DoD Agency-wide
    financial statements. This report focuses on the ODO General Funds. The ODO
    General Funds reported $130.5 billion in budgetary resources in the FY 2005
    DoD Agency-Wide Financial Statements (15.4 percent of all budgetary resources
    shown on the FY 2005 DoD Agency-Wide Financial Statements).

    Defense Finance and Accounting Service. The Audited Financial Statements
    Division, Defense Finance and Accounting Service (DFAS) Indianapolis is
    responsible for providing financial reporting support for the ODO. Specifically,
    DFAS Indianapolis is responsible for compiling and consolidating the financial
    information for 41 ODOs. Appendix C lists the ODOs that DFAS Indianapolis is
    responsible for and those that are compiled and consolidated at other
    DFAS centers.

    ODO Accounting Offices. Accounting offices are responsible for recording,
    summarizing, verifying, and reporting accounting transactions submitted by
    serviced activities. The accounting offices are responsible for submitting general
    ledger trial balance information to DFAS Indianapolis on a monthly basis.
    Accounting offices provide trial balances to DFAS Indianapolis in both DoD
    Standard General Ledger (SGL) and the U.S. SGL.

    Abnormal Balance. A general ledger account balance is abnormal when it does
    not match the normal debit or credit balance established in the general ledger
    chart of accounts. For example, an asset normally has a debit balance; therefore,
    a credit balance would be an abnormal balance.


Objectives
    Our overall audit objective was to evaluate the DFAS Indianapolis procedures
    and controls for handling abnormal balances when compiling and consolidating
    financial data from supporting accounting offices to prepare the financial
    statements for ODO. We evaluated whether DFAS Indianapolis identified and
    disclosed abnormal balances. We also reviewed corrective actions taken in
    response to previous audits that showed internal control weaknesses and made
    recommendations related to abnormal balances in trial balances supporting the
    ODO financial statements. In addition, we reviewed internal controls and
    compliance with laws and regulations related to our objective. Appendix A
    discusses the audit scope and methodology. See Appendix B for prior coverage
    related to the audit objectives.



                                         1
Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls. Effective
    January 4, 2006, DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
    Program Procedures,” was implemented to replace the DoD Instruction 5010.40,
    August 28, 1996.

    Scope of the Review of the Managers’ Internal Control Program. We
    reviewed DFAS Management Control Program and internal controls over the
    identification, disclosure, and correction of abnormal balances when compiling
    and consolidating the financial statements for ODO. We did not identify a
    material weakness, as defined by DoD Instruction 5010.40, “Management Control
    (MC) Program,” August 28, 1996, which was the effective instruction during the
    scope of our review, and we did not assess management’s self-evaluation.

    Adequacy of Management Controls. Although we did not identify material
    weaknesses as defined by DoD Instruction 5010.40, we did identify internal
    control weaknesses over the identification and disclosure of abnormal balances.
    Our report makes recommendations that if implemented will correct these internal
    control weaknesses.




                                        2
           A. Unexplained Abnormal Balances in
              Trial Balances
           The trial balance submissions used by DFAS Indianapolis to prepare the
           ODO financial statements contained unexplained abnormal balances.
           Specifically, trial balances submitted by the accounting offices for
           inclusion in the third quarter FY 2005 ODO Financial Statements
           contained an absolute value of $21.3 billion in abnormal balances. Of the
           15 trial balance submissions with abnormal balances, 14 did not include
           footnotes explaining the abnormal balances. The accounting offices and
           DFAS Indianapolis did not effectively implement prior DoD Inspector
           General (DoD IG) recommendations. Specifically:
                  •   the accounting offices did not establish or implement standard
                      operating procedures to ensure that the required detailed
                      explanations for abnormal balances were included on the
                      quarterly trial balance submissions to DFAS Indianapolis, and

                  •   DFAS Indianapolis did not provide clear footnote
                      requirements to the accounting offices for quarterly trial
                      balance submissions.

           As a result, DFAS Indianapolis did not have information necessary to
           assess the quantitative impact of anomalies in the data supporting the
           ODO financial statements or disclose the qualitative nature of the
           anomalies where appropriate. Explanatory footnotes will decrease the
           amount of time DFAS Indianapolis personnel need to invest in followup
           and resolution of trial balance submissions.


Trial Balance Submissions
    DFAS Indianapolis receives trial balances from accounting offices responsible for
    the accounting of ODO. DFAS Indianapolis uses this financial data for preparing
    the ODO financial statements. The absolute value of abnormal balances in the
    third quarter trial balances submissions provided to DFAS Indianapolis was
    $21.3 billion. Of the 15 trial balance submissions containing abnormal balances,




                                        3
only the DFAS Cleveland submission included footnotes for abnormal balances.
Table 1 shows the absolute value of abnormal balances by trial balance
submission.

            Table 1. Third Quarter FY 2005 Abnormal Balances
                               (in millions)
                      Trial Balance Submissions                                    Abnormal Balances
   DFAS Indianapolis                                                                              $9,683.9
                                      1
   Component Level Accounts                                                                         7,829.4
   DFAS Denver                                                                                      1,807.4
                                                      2
   Military Housing Privatization Initiative                                                        1,124.1
   Defense Agency Financial Services                                                                  595.0
   DFAS Cleveland                                                                                       85.6
   DoD Education Activity                                                                               71.1
                              3
   Manual Trial Balance                                                                                 41.4
   Defense Information Systems Agency                                                                   35.0
   Washington Headquarter Services                                                                       8.5
   TRICARE Management Activity                                                                           4.6
   Defense Threat Reduction Agency                                                                       3.8
   White House Communications Agency                                                                     1.0
   DFAS Columbus                                                                                         0.1
   Uniformed Services University of Health Sciences                                                      0.1
       Total                                                                                     $21,291.0

   1
     Component level accounts include information from classified trial balances.
   2
     Of the total abnormal balances identified for the Military Housing Privatization Initiative, 98.6 percent
   is provided only to populate the note schedules. The amounts appear as abnormal balances because the
   Department of the Treasury guidance to record entries conflicts with the U.S. SGL chart of accounts.
   DFAS Indianapolis personnel stated that the Department of the Treasury is correcting this guidance.
   3
     Certain information is not included in the trial balances submitted by the accounting offices. DFAS
   Indianapolis creates a manual trial balance for this information by using the Report on Budget Execution
   (DD Form 1176).




                                                     4
Procedures for Identifying and Explaining Abnormal Balances
  in Trial Balances
           The ODO accounting offices did not have effective controls to ensure that they
           provided detailed explanations in footnotes to the trial balances for all abnormal
           balances included in quarterly submissions to DFAS Indianapolis. In addition,
           DFAS Indianapolis did not clarify the requirements in its year-end guidance or in
           a separate issuance for the accounting offices to provide explanatory footnotes for
           abnormal balances on the quarterly trial balances.

           Accounting Office Standard Operating Procedures. DoD IG Report
           No. D-2000-0153, “Compilation of the FY 1999 Financial Statements for Other
           Defense Organizations-General Funds,” June 23, 2000, identified weaknesses in
           controls over the identification and disclosure of abnormal balances in the trial
           balances provided to DFAS Indianapolis. The accounting offices 1 agreed to
           provide detailed explanations in footnotes to the trial balances for all abnormal
           balances included on quarterly submissions to DFAS Indianapolis. Some
           accounting offices had requested that DFAS Indianapolis provide specific
           guidance on the format to be used to submit the detailed explanations with the
           trial balances. However, the corrective actions taken by the accounting offices to
           address the identified weaknesses are not effective.

           Personnel at the majority of the accounting offices stated that they do not have, or
           are unaware of, any written standard operating procedures for identifying,
           disclosing, and correcting abnormal balances on the trial balance submissions.
           While personnel at some of the accounting offices were able to describe the
           processes that are in place, only DFAS Cleveland was able to provide written
           standard operating procedures discussing the inclusion of footnote explanations of
           abnormal balances. In addition, there were inconsistent responses from personnel
           at the accounting offices on whether DFAS Indianapolis provided guidance
           regarding the requirements for quarterly footnote explanations of abnormal
           balances. A staff member at TRICARE Management Activity stated that office
           staff are aware of the abnormal balances submitted and try to remain
           knowledgeable regarding causes of abnormal balances. However, because of
           insufficient resources, they do not submit explanations for the abnormal balances
           unless asked by DFAS Indianapolis personnel. The accounting offices should
           implement procedures to explain all abnormal balances in trial balance
           submissions, even when the accounting office considers those balances
           appropriate.

           Defense Finance and Accounting Service Indianapolis Guidance. DoD IG
           Report No. D-2000-0153 recommended that DFAS Indianapolis revise year-end
           guidance to include the data and format requirements for the explanatory


1
    The recommendation addressed: DFAS Cleveland, DFAS Columbus, DFAS Denver, DFAS Indianapolis,
     Defense Information Systems Agency, Defense Threat Reduction Agency, Washington Headquarters
     Service, DoD Education Activity, TRICARE Management Activity, and Uniformed Services University
     of Health Sciences.



                                                   5
    footnotes to ensure reporting consistency by the accounting offices. DFAS
    Indianapolis concurred with this recommendation to provide detailed guidance to
    the accounting offices in the year-end guidance.

    The “Fiscal Year-End Accounting and Reporting Instructions for Funds Executed
    by Defense Agencies” memorandum provides fiscal year-end instructions for
    accounting for Department 97 funds. The year-end guidance requires the
    accounting offices to properly footnote and explain all abnormal balances in the
    reports and general ledger trial balance submissions. The accounting offices
    should provide the following in the footnotes:

           •   the source,

           •   the circumstances involved,

           •   the actions underway to resolve the condition, and

           •   the estimated completion date.

    The year-end guidance states that, prior to submitting the year-end trial balances,
    accounting offices should identify and correct abnormal balances in general
    ledger trial balances. The guidance acknowledges that accounting offices may
    consider some abnormal balances appropriate; however, it requires that the
    accounting office identify and explain all abnormal balances in the accompanying
    footnotes.

    DFAS Indianapolis personnel stated that these instructions are also applicable to
    the quarterly reporting process. However, the applicability of the year-end
    guidance to the quarterly reporting process is not evident. DFAS Indianapolis
    should provide accounting offices with a quarterly issuance or expand the
    year-end guidance emphasizing the requirements for providing explanatory
    footnotes for abnormal balances on the quarterly trial balances. DFAS
    Indianapolis should establish procedures to verify that accounting offices follow
    the required guidance.


Conclusion
    Because the trial balance submissions used by DFAS Indianapolis to prepare the
    ODO financial statements contained unexplained abnormal balances, DFAS
    Indianapolis did not have information necessary to assess the quantitative impact
    of anomalies in the data supporting the ODO financial statements or disclose the
    qualitative nature of the anomalies where appropriate. Implementation of the
    corrective actions will increase the accountability associated with the ODO trial
    balance submissions. Because we limited our audit to DFAS Indianapolis, except
    when noted otherwise, we are limiting our recommendation to DFAS
    Indianapolis. However, the accounting offices should implement procedures to
    explain all abnormal balances in trial balance submissions, even when the




                                         6
    accounting office considers those balances appropriate. Explanations in the
    footnotes will decrease the amount of time DFAS Indianapolis personnel need to
    invest in followup and resolution of trial balance submissions.


Recommendation and Management Comments
    A. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis revise the existing year-end guidance or establish
    separate quarterly guidance to specifically require accounting offices to
    provide Defense Finance and Accounting Service Indianapolis explanatory
    footnotes for all abnormal balances in the quarterly trial
    balance submissions.

    Management Comments. The Director, DFAS Indianapolis concurred with the
    recommendation and stated that they will revise the existing year-end guidance
    and establish separate quarterly guidance to specifically require accounting
    offices to provide DFAS Indianapolis explanatory footnotes for all abnormal
    balances in the quarterly trial balance submissions. The estimated completion
    date is June 30, 2006.




                                       7
                     B. Procedures for Identifying and
                        Disclosing Abnormal Balances
                     DFAS Indianapolis did not disclose in the notes to the financial statements
                     unresolved and uncorrected abnormal balances in the trial balance
                     submissions and the Reports on Budget Execution (DD Forms 1176). In
                     addition, DFAS Indianapolis did not disclose the nature of accounting
                     entries made during the compilation and consolidation process to adjust
                     and eliminate abnormal balances in the financial data used to prepare the
                     financial statements.

                     The processes used by DFAS Indianapolis to compile and consolidate the
                     ODO financial statements inherently masked or eliminated abnormal
                     balances that were in the trial balances and DD Forms 1176 used to
                     prepare the financial statements. DFAS Indianapolis did not develop and
                     implement standard operating procedures in the compilation and
                     consolidation process for:
                              •   identifying, assessing, and quantifying information about
                                  abnormal balances for disclosure, and

                              •   evaluating and compiling information for disclosure about
                                  adjustments made by DFAS Indianapolis that eliminate
                                  abnormal balances.

                     As a result, the notes to the third quarter FY 2005 ODO Financial
                     Statements were inaccurate and misleading and failed to show the extent
                     of potential problems associated with data in the financial statements. 2


Identification and Disclosure of Abnormal Balances
            In accordance with Federal financial reporting requirements, note disclosures
            should convey the extent of potential problems in the data presented in the
            financial statements. DFAS Indianapolis guidance is not detailed enough to
            provide sufficient instruction on the identification and disclosure of abnormal
            balances in the notes to the financial statements.

            Statement of Federal Financial Accounting Concepts. Statement of Federal
            Financial Accounting Concepts No. 1, “Objectives of Federal Financial
            Reporting,” September 2, 1993, states that information should be provided in the
            financial statements that is useful to internal and external users for assessing the
            accountability of the entity. The information should demonstrate that the
            Government is accountable for its integrity, performance, and stewardship, and

2
    DFAS Indianapolis did not make a distinction between the quarterly and year-end procedures for
    identifying and disclosing abnormal balances; therefore, the issues regarding identification and disclosure
    also affect the year-end financial statements. However, we reviewed only the third quarter FY 2005
    information.



                                                        8
should help internal users of financial information improve the management of
the Government. Statement of Federal Financial Accounting Concepts No. 2,
“Entity and Display,” June 5, 1995, states that management is responsible for the
accuracy and fairness of the information presented on the financial statements and
that the associated note disclosures are necessary so that financial statement users
understand the context of the reported information.

DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
(FMR) Volume 6B. In accordance with the requirements in the Office of
Management and Budget Circular A-136, “Financial Reporting Requirements,”
August 23, 2005, the FMR requires the disclosure of any additional information
that is necessary for understanding the nature of the amounts reported on the
financial statements.

Until January 2006, the FMR, volume 6B, required the disclosure of accounting
entries made to eliminate abnormal balances if:

       •   the line item or account containing the abnormal balance is material to
           the financial statements,

       •   the aggregate total is material,

       •   the accounting site was unable to correct the abnormal balance, or

       •   the accounting site was unable to determine materiality.

It also required the disclosure of abnormal balances in the notes to the financial
statements for:

       •   abnormal accounts receivable balances resulting from
           undistributed collections, and

       •   any abnormal balances that exist in the amounts reported on the
           Statement of Budgetary Resources.

DoD IG Report No. D-2004-118, “Army General Fund Controls Over Abnormal
Balances for Field Accounting Activities,” September 28, 2004, recommended
that the Under Secretary of Defense (Comptroller) update the FMR to require that
all unresolved abnormal balances be disclosed in the notes to the financial
statements. The Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer concurred with the recommendation.




                                      9
           In January 2006, the FMR, volume 6B, was updated to require that DoD disclose
           all abnormal account balances found in all financial statement lines and note
           schedules. The disclosures should include the following:

                    •   the dollar amount of the abnormal balance,

                    •   the business event that caused the abnormal balance,

                    •   the reason the abnormality occurred,

                    •   the fiscal time period in which the abnormal balance occurred, and

                    •    when the abnormality will be corrected.

           In addition, the FMR directs that all abnormal proprietary 3 and budgetary 4
           U.S. SGL accounts must be researched and resolved, if possible. This update did
           not fully satisfy the intent of the recommendation made in DoD IG Report
           No. D-2004-118 because it does not address abnormal balances in accounting
           data below the financial statement line. As of April 18, 2006, the
           recommendation was still open pending negotiations between DoD IG and the
           Office of the Under Secretary of Defense (Comptroller)/Chief Financial Officer.


Compilation and Consolidation Process for Data Supporting
  the Financial Statements
           The processes used by DFAS Indianapolis to compile and consolidate the ODO
           financial statements inherently masked abnormal balances in the trial balances
           and DD Forms 1176. DFAS Indianapolis uses the trial balances, DD Forms 1176,
           and other financial documents, and uses multiple processes to prepare the
           financial statements. As such, visibility over abnormal balances is easily lost
           without




3
    Proprietary accounts are those accounts necessary to record changes in the basic accounting
    equation Assets = Liabilities + Equity.
4
    Budgetary accounts are those accounts necessary to track and control budgetary resources and the status
    of those resources in the basic budgetary equation: budgetary resources = status of budgetary resources.



                                                      10
procedures to identify and quantify abnormal balances, request correction by the
accounting offices, and assess amounts for disclosure. Figure 1 depicts the
financial data flow for the preparation of the ODO financial statements.


               DD Forms 1176 Report
                on Budget Execution                    FACTS II1 Trial Balance




            Trial
           Balances                     CFO2 Load                              Defense
            from                    Reconciliation System                    Departmental
          Accounting                                                       Reporting System
           Offices



                               Proprietary to                  Proprietary to        ODO Financial
                                Budgetary                       Budgetary             Statements
                               Reconciliation                  Adjustments
   1
       Federal Agencies’ Centralized Trial-Balance System II
   2
       Chief Financial Officer


Figure 1. Compilation and Consolidation Process for ODO
Financial Statements

The trial balances are considered the basis for the ODO financial statements;
however, DD Forms 1176 and the Federal Agencies’ Centralized Trial-Balance
System II (FACTS II) trial balances are also source documents used by DFAS
Indianapolis to prepare the ODO financial statements. The trial balances,
DD Forms 1176, and FACTS II trial balances are imported into the CFO Load
Reconciliation System (CLRS) where the data are consolidated to create the
unadjusted CLRS trial balance. Because of system deficiencies, DFAS
Indianapolis makes adjustments to the trial balance data submitted by the
accounting offices for proprietary accounts to match the data to the
DD Forms 1176 budgetary data where there is a relationship between the
information. These adjustments are commonly referred to as proprietary to
budgetary adjustments. Once DFAS Indianapolis makes other necessary
adjustments in CLRS and the data are consolidated to the required format, the
Defense Departmental Reporting System imports the necessary data to create the
ODO financial statements.




                                                     11
Identification, Assessment, and Quantification of
  Abnormal Balances
     DFAS Indianapolis did not develop and implement standard operating procedures
     in the compilation and consolidation process for identifying, assessing, and
     quantifying information about abnormal balances in the trial balances and
     DD Forms 1176 for disclosure on the financial statements. DoD IG Report
     No. D-2000-0153 recommended that DFAS Indianapolis establish and implement
     detailed procedures to review the trial balances submitted for the ODO at least
     quarterly, to include identifying abnormal balances and requesting that accounting
     offices correct the trial balances. In addition, DoD IG Report No. D-1999-0191,
     “Compilation of the FY 1998 Financial Statements for Other Defense
     Organizations,” June 24, 1999, recommended that DFAS Indianapolis explain in
     the notes material abnormal balances absorbed into the normal balances reported
     on the financial statements.
     DFAS Indianapolis visibility of abnormal balances is limited to summary-level
     abnormal balances in the adjusted CLRS trial balance using an informal
     application of materiality. As a result, unidentified and unexplained abnormal
     balances from the trial balances and DD Forms 1176 are consolidated into and
     masked by the compilation process. DFAS Indianapolis loses visibility of these
     abnormal balances and does not consider them for disclosure on the financial
     statements because procedures have not been established to identify the
     disposition of the data.

     DFAS Indianapolis Identification and Assessment of Abnormal Balances.
     DFAS Indianapolis requires accounting offices to properly footnote and explain
     all abnormal balances in the reports and general ledger trial balance submissions.
     However, DFAS does not conduct an independent review of the trial balances and
     the DD Forms 1176 to identify abnormal balances. DFAS Indianapolis personnel
     stated that they have been unsuccessful in their attempt to get the required
     explanations from the accounting offices. As a result of time constraints caused
     by accelerated reporting requirements, DFAS Indianapolis conducts followup in
     the months succeeding the preparation of the financial statements. DFAS
     Indianapolis personnel stated that the earliest point in the compilation and
     consolidation process that they would consider abnormal balances for
     identification and disclosure would be during the review of the CLRS trial
     balance.
     The CLRS trial balance provides the data from the trial balances and
     DD Forms 1176 by entity code. Each ODO that is consolidated into the financial
     statements has multiple entity codes that are determined by funding type. For
     instance, each ODO has a separate entity code for Military Construction funds;
     Operation and Maintenance funds; Procurement funds; Research, Development,
     Test, and Evaluation funds; and an entity code for other funds which captures all
     items that do not fall under the previous funding categories.




                                         12
            Each of the entity codes is a consolidation of different appropriations and limits 5
            that may be reported to DFAS Indianapolis on separate trial balance submissions.
            Table 2 shows an excerpt of the entity code information for an ODO.

                           Table 2. TRICARE Management Activity Entity Codes

                  ODO              Entity Code             Funding          Basic Symbol and Limit           Submitter
                                                            Type
                                                                                              Army           DFAS IN
                                                           Military           Military        Navy           DFAS IN
                                 AT97AH6_1400            Construction       Construction      Air Force      DFAS DE
             TRICARE
                                                                                              DMSA           DFAS IN
             Management
             Activity                                                                         Army           DFAS IN
                                                          Research,           Defense         Navy           DFAS CL
                                 AT97AG6_1400            Development           Health         Air Force      DFAS DE
                                                           Test &             Program
                                                          Evaluation                          TMA            DAFS
                                                                                              USUHS          USUHS
             CL     Cleveland                           IN    Indianapolis
             DAFS   Defense Agency Financial Services   TMA TRICARE Management Activity
             DE     Denver                              USUHS Uniformed Services University of Health Sciences
             DMSA   Defense Medical Support Agency


            For example, if a balance sheet account representing the reported value for
            Military Construction for TRICARE Management Activity was normal, DFAS
            Indianapolis would not assess the impact of any abnormal balances in the
            individual submissions. However, the total value is comprised of balances for the
            sub-elements that execute the appropriation. DFAS Indianapolis, DFAS Denver,
            and DFAS Cleveland are responsible for submitting the balances of the
            sub-elements—Army, Navy, Air Force, and Defense Medical Support Agency.
            Because of the nature of the information at the entity code level, the process of
            only identifying abnormal balances at this level masks the presence of abnormal
            balances that are in the trial balances and DD Forms 1176 related to the
            sub-elements. Further, because DFAS Indianapolis has not implemented
            procedures to identify (and document) abnormal balances in the trial balances and
            the DD Forms 1176, there is no impetus to contact the submitters and request
            correction and explanation (when not provided) unless the amount is considered
            material to the ODO financial statements as defined by DFAS Indianapolis.

            DFAS Indianapolis Assessment of Abnormal Balances. DFAS Indianapolis
            personnel stated that their assessment for possible disclosure is limited to material
            abnormal balances at the entity code level. DFAS Indianapolis defines a material
            abnormal balance as the absolute value of the abnormal balances at the entity
            code level exceeding 2 percent of net assets or 10 percent of the line item based
            on the previous quarter’s information. This application decreases the visibility of
            abnormal balances in the trial balances, DD Forms 1176, and specific entity

5
    A limit is a four-digit suffix to the U.S. Treasury account number (basic symbol). It is used to identify a
    subdivision of funds that restricts the amount or use of the funds for a certain purpose or identifies
    sub-elements in the account for management purposes.



                                                             13
                            codes, and decreases the associated accountability of the appropriation
                            sub-element. Figure 2 depicts the layering of the information at the entity code
                            level and demonstrates how DFAS Indianapolis may not be able to identify
                            abnormal balances in the trial balances and DD Forms 1176.


                                                  Total Abnormal Balances at the Entity Code Level
                                                                     ($69.4)
   Entity Code




                              Office of the              PRMRF1, Other                  DTSA, O&M2                    Other Entity
                              Secretary of                                                                              Codes3
                             Defense, Other
                                ($15.3)                       ($34.0)                        ($0.4)                      ($19.7)

                            Base Realignment             PRMRF-WHS4                     DTSA, O&M
                              and Closure
                             Part III, Navy
                                  $0.9                       ($37.1)                         ($0.6)
Source Financial Data




                            Base Realignment             PRMRF-WHS,                     DTSA, O&M
                              and Closure                   Army
                             Part IV, Navy
                                 ($0.1)                        $3.0                           $0.2

                            Base Realignment
                              and Closure
                             Part IV, Navy
                                  $0.1

                            Base Realignment
                              and Closure

                                 $93.5

                            Base Realignment
                              and Closure,
                             Undist/Unalloc5
                                ($109.7)

                        1
                          Pentagon Reservation Maintenance Revolving Fund, Washington Headquarters Service.
                        ² Defense Technology Security Agency, Operations and Maintenance.
                        3
                          Other entity codes represent the following: DoD Component Level Accounts - Military Construction ($2.8); DoD
                        Component Level Accounts - Other ($16.7); and three other entity codes that total ($0.07).
                        4
                          Washington Headquarters Service.
                        5
                          Base Realignment and Closure - Undistributed and Unallocated amounts.


                            Figure 2. Abnormal Balances for Accounts Receivable at the Entity Code
                            Level (in millions)




                                                                             14
            Figure 2 was created using third quarter FY 2005 accounts receivable data
            provided by DFAS Indianapolis to demonstrate that at the entity code level the
            account balances do not contain material abnormal balances as defined by DFAS
            Indianapolis. Based on DFAS Indianapolis application of materiality, it would
            consider only those abnormal balances that exceed $46.6 million 6 at the entity
            code level to be material. Our review of the accounts receivable for three entity
            codes showed abnormal balances totaling $147.5 million from data used to
            prepare the third quarter FY 2005 financial statements. Factoring all abnormal
            balances in accounts receivable (for those entity codes with abnormal balances at
            the entity code level) increases the total to $167.2 million.

            Of the $147.5 million abnormal balances reviewed, $109.7 million represent
            undistributed disbursements and collections. We recognize that undistributed
            disbursements and collections represent a difference between the field records and
            those records maintained by the Department of the Treasury. DFAS Indianapolis
            provides a general disclosure in the notes to the ODO financial statements related
            to undistributed disbursements and collections. However, the balance is still
            abnormal and should not be excluded from assessments made regarding
            disclosure for abnormal balances.

            Even when quantifying all of the abnormal balances in accounts receivable at the
            entity code level, the abnormal balances total $69.4 million, which exceeds the
            materiality level as defined by DFAS Indianapolis personnel. DFAS Indianapolis
            personnel stated they do not have a process in place to quantify all abnormal
            balances to determine the extent of the total abnormal balances on the financial
            statements or in particular line items. However, the Chief, Audited Financial
            Statements Division, DFAS Indianapolis, was receptive to determining and
            disclosing abnormal balance information but wanted to ensure that the
            information disclosed would be beneficial to the reader of the financial
            statements.

            DFAS Indianapolis Disclosure of Abnormal Balances. DFAS Indianapolis
            written guidance for preparing the notes to the ODO financial statements states
            that staff should disclose material abnormal balances masked in financial
            statement figures. However, the guidance does not explain how staff should
            determine the masked material abnormal balances. DFAS Indianapolis personnel
            stated that they would limit such disclosures to material abnormal balances
            identified on the CLRS trial balance using the materiality threshold of 2 percent
            of net assets or 10 percent of the line item.

            The FMR does not provide guidance for allowing the application of a materiality
            threshold when disclosing abnormal balances in the financial statements. In order
            to correctly apply a materiality threshold, DFAS Indianapolis would need to
            understand the relationship of the abnormal balance to the account balance.
            Specifically, DFAS Indianapolis would need to know the cause of the abnormal
            balance and the adjustment to correct the abnormal balance. However, because
            the abnormal balances are not explained by the accounting offices, it is not known

6
    DFAS Indianapolis bases materiality on the information from the prior quarter; therefore, the materiality is
    calculated based on 10 percent of accounts receivable of $466.2 million from the second quarter
    FY 2005.



                                                        15
    whether the misstatement is the absolute value of the abnormal balance; therefore,
    the application of a materiality threshold as it relates to the account balance is not
    logical.

    DFAS Indianapolis does not appropriately apply the concept of materiality to the
    process of identifying and disclosing abnormal balances masked within
    normal balances. DFAS Indianapolis should establish procedures to quantify
    abnormal balances submitted in the financial data, develop an identification and
    disclosure metric, and make disclosures about the abnormal balances.


Adjustments and Eliminations of Abnormal Balances
    DFAS Indianapolis makes entries during the compilation and consolidation
    process that adjust and eliminate abnormal balances existing in the trial balances
    and DD Forms 1176. They did not establish and implement standard operating
    procedures for evaluating and compiling information about these adjustments and
    eliminations for disclosure in the financial statements.

    Abnormal Balance Adjustments. Because of system deficiencies, DFAS
    Indianapolis makes adjustments to financial data for presentation on the financial
    statements. Some of these adjustments result in summary-level adjustments to
    uncorrected abnormal balances. DFAS Indianapolis makes entries to adjust the
    trial balance data to budgetary data and prepares journal entries that eliminate
    abnormal balances resulting from these adjustments. Figure 3 depicts the
    processing of the $21.3 billion abnormal balances in the third quarter trial balance
    submissions.


                      Unexpended Appropriations: 7.7%




           Other: 21.8%*




                                                                             Proprietary to
                                                                             Budgetary
                                                                             Adjustments: 70.5%


        *
         This includes $1,108 million from the Military Housing Privatization Initiative that is
        submitted only for inclusion in footnote schedules.


    Figure 3. Compilation and Consolidation of Abnormal Balances Contained
    in Trial Balance Submissions




                                                         16
                    Proprietary to Budgetary Adjustments (PBA). DFAS Indianapolis
            makes journal entries to adjust the trial balance data to the DD Form 1176 where
            there is a relationship between budgetary data and the proprietary general ledger
            accounts. These journal entries include adjustments to unresolved and
            uncorrected abnormal balances. In addition, the entries could adjust proprietary
            abnormal balances to budgetary normal balances. Approximately $15.0 billion
            (70.5 percent) of the $21.3 billion of abnormal balances were in proprietary
            general ledger accounts that DFAS Indianapolis reconciled to match budgetary
            data during the PBA process. However, DFAS Indianapolis does not have
            procedures in place to disclose the nature and impact of the PBA on abnormal
            balances in the trial balance submissions.

                    Unexpended Appropriations Adjustments. DFAS Indianapolis
            personnel also make entries to adjust the unexpended appropriations data
            submitted because the legacy systems 7 used to generate the trial balances do not
            provide the necessary breakout of the unexpended appropriations component
            accounts. Of the $21.3 billion of abnormal balances identified, $1.6 billion
            (7.7 percent) were in the unexpended appropriations account. Transactions
            affecting unexpended appropriations are posted only to SGL 3100 in most trial
            balances. DFAS Indianapolis personnel indicated that because the data are
            combined in the SGL 3100 balances provided in the trial balances, they are
            unable to determine whether the balances are normal or abnormal. However,
            explanations from the accounting offices could alleviate this uncertainty.

            Although DFAS Indianapolis adjusts abnormal balances in the trial balances to
            the DD Form 1176 data, the abnormal balances in source data are uncorrected and
            should be disclosed. We recognize that a general disclosure is provided in the
            notes to the ODO financial statements that states that the ODO financial data will
            be based on budgetary transactions until the current systems are updated.
            However, DFAS Indianapolis does not have procedures in place to quantify the
            anomalies that exist at the field level, disclose the nature and amounts of these
            adjustments, or to demonstrate the impact the adjustments have on the ODO
            financial statements.

            Abnormal Balance Eliminations. DFAS Indianapolis procedures dictate that it
            reclassify abnormal accounts receivable balances resulting from differences
            between collections reported by the field sites and the Department of the
            Treasury. The Budget Execution Reports Division identifies these differences in
            the Cash Management Report (CMR) and makes entries to adjust collections (and
            the associated receivables) on the DD Forms 1176 to match the collections
            reported by the Department of the Treasury. When the CMR entry causes an
            abnormal accounts receivable balance and the field submitted balance is normal,
            DFAS Indianapolis adjusts the balance to match the field submitted receivable.




7
    The legacy systems used to generate the trial balances consist of financial and nonfinancial feeder systems
     that were not designed to comply with Federal generally accepted accounting principles but are used to
     derive the information used in the financial statements.



                                                       17
    As shown in Figure 2, the third quarter FY 2005 accounts receivable consisted of
    abnormal balances totaling $69.4 million at the entity code level. DFAS
    Indianapolis made adjustments totaling $90.5 million that eliminated the
    abnormal intragovernmental accounts receivable balances. Instead of reporting
    and disclosing the abnormal balance resulting from the CMR entry, DFAS
    Indianapolis reclassified the abnormal balances to accounts payable and reported
    a normal balance of $21.1 million in accounts receivable on the balance sheet for
    these entity codes. The reclassification caused an increase to intragovernmental
    accounts receivable and intragovernmental accounts payable of 130 percent and
    51 percent, respectively. We do not advocate making such adjustments that
    categorically eliminate abnormal balances; however, if DFAS chooses to
    eliminate abnormal balances, it should disclose those summary level adjustments.


Conclusion
    While the scope of our review was limited to examples intended to determine how
    DFAS Indianapolis assesses abnormal balances for disclosure in the financial
    statements, we believe the results of our review are representative of the process
    DFAS Indianapolis uses. We will expand the scope of our review in our audit of
    DFAS processes for compiling and consolidating the ODO financial statements.
    Because DFAS Indianapolis did not recognize the extent of abnormal balances in
    the financial data supporting the ODO financial statements or the adjustment
    and elimination of the abnormal balances, the accountability associated with the
    identification, disclosure, and correction of abnormal balances is diminished. As
    a result, managers and responsible personnel reading the financial statements do
    not understand the extent of potential problems in the data shown in the financial
    statements.


Recommendation, Management Comments, and
  Audit Response
    B. We recommend that the Director, Defense Finance and Accounting
    Service Indianapolis establish and implement a process to identify abnormal
    balances in the financial data supporting the Other Defense Organizations
    financial statements and disclose the financial statement disposition of
    those anomalies.

            1. Develop an identification and disclosure metric for abnormal
    amounts in the entity code level supporting the financial statement account
    or line item.

           2. Disclose in the notes to the financial statements the metric and the
    abnormal amounts when they exceed that metric, to include amounts that
    are eliminated as a result of reclassifications.




                                        18
       3. Disclose in the notes to the financial statements the nature of
individual amounts in an entity code or at the entity code that individually
exceed the metric to include the following:

           •   the dollar amount of the abnormal balance,

           •   the business event that caused the abnormal balance,

           •   the reason the abnormality occurred,

           •   the fiscal time period in which the abnormal balance
               occurred, and

           •   when the abnormality will be corrected.

Management Comments. The Director, DFAS Indianapolis nonconcurred with
the recommendation and stated that they use the materiality threshold as
identified in the DoD Financial Management Regulation. The Director stated that
the DoD Financial Management Regulation disclosure metric is a materiality
threshold of 2 percent of total assets or 10 percent fluctuation from prior year's
balance. Because of the volume of data received to support the Other Defense
Organizations General Fund financial data, DFAS Indianapolis summarizes the
data at the entity code level and applies a materiality threshold.

The Director also stated that the metric for the identification and disclosure of
abnormal balances is disclosed in Note 1, section 1.W, to the financial statements.
The guidance from the DoD Financial Management Regulation is used to disclose
in the notes to the financial statements the abnormal amounts when they exceed
that metric. In addition, the amounts that are eliminated as a result of
reclassifications are not disclosed because the reclassification is a corrective
action or adjustment to better represent the financial position of the Other Defense
Organization General Fund financial data, based on known system deficiencies.
The impact of the reclassifications are disclosed in the footnotes if they are
material.

Audit Response. The DFAS Indianapolis management comments are not
responsive. The response centers around the implication that there is an
understood association between materiality of account fluctuations and abnormal
balances. The DoD Financial Regulation does require disclosure of differences
between comparative periods when the variance equals or exceeds 10 percent of
the same line item or 2 percent of the current period total assets for the purpose of
disclosing fluctuations within a line item. However, the implied applicability of
this guidance to the disclosure of abnormal balances is not evident. First, the
DoD Financial Management Regulation materiality does not extend to the
disclosure of abnormal balances. Second, to apply a materiality threshold as a
percentage of an account balance to the abnormal balances in the account
balances suggests that a determination of a specific anomaly or misstatement has
been identified and the adjustment necessary to correct the abnormal balance is
known. However, the anomaly or misstatement is not necessarily the absolute
value of the abnormal balance. Therefore, without identifying the amount of the



                                     19
anomaly or misstatement, the materiality of the abnormal balances cannot be
measured as it




                                   20
relates to the Other Defense Organizations financial statements. As such, DFAS
Indianapolis needs to develop and document a metric specific to the identification
and disclosure of abnormal balances.

In addition, Note 1, section 1.W, to the financial statements did not address a
metric used for the disclosure of abnormal balances. Instead, Note 1, section 1.W
to the 3rd Quarter FY 2005 Other Defense Organizations Financial Statements
states:
       The financial statements and accompanying notes to the financial
       statements report the financial position and results of operations for the
       3rd Quarter, FY 2005. Financial statement fluctuations greater than
       2 percent of total assets on the Balance Sheet and/or greater than
       10 percent between the 3rd Quarter, FY 2004, and 3rd Quarter,
       FY 2005, are explained within the notes to the financial statements.

Again, the implication that there is a relationship between disclosing fluctuations
between reporting periods and isolated anomalies within account balances is not
evident. DFAS Indianapolis needs to clearly state in the notes to the financial
statements how abnormal balances are identified for disclosure. Because of the
volume of the financial data received by DFAS Indianapolis, the recommendation
would require DFAS Indianapolis to disclose only those abnormal balances that
exceed the metric. However, DFAS Indianapolis application of a materiality
threshold at the individual entity code level results in the loss of visibility over
individual abnormal balances on the trial balances and DD Forms 1176. The
entire universe of abnormal balances needs to be collectively analyzed to
demonstrate the quantity of abnormal balances within each account or line item.

We recognize that DFAS Indianapolis makes adjustments to better represent the
financial position of the Other Defense Organizations financial data because of
known system deficiencies. However, the adjustments made to eliminate the
abnormal balances in accounts receivable that result from Cash Management
Report entry is driven by the existence of the abnormal balance. DFAS
Indianapolis would not have reclassified the amount if the balance were normal.
We request that the Director, DFAS Indianapolis reconsider his position and
provide additional comments by July 10, 2006.




                                          21
Appendix A. Scope and Methodology
   We evaluated the DFAS Indianapolis processes for identifying and disclosing
   abnormal balances when compiling and consolidating the ODO financial
   statements. We identified applicable standard operating procedures established
   by DFAS Indianapolis and interviewed DFAS Indianapolis personnel to
   understand the procedures for identifying and disclosing abnormal balances. We
   identified FMR guidance for the disclosure of abnormal balances in the notes to
   the financial statements. In addition, we examined the third quarter FY 2005
   ODO trial balance data and compared the data to the normal balances for the
   accounts specified in the DoD SGL and the U.S. SGL charts of accounts. We
   reviewed only the proprietary amounts in the trial balances submitted by the
   accounting offices because DFAS Indianapolis removes all budgetary data from
   the trial balance submissions because not all accounting offices submit budgetary
   data. We focused primarily on the trial balances submitted by the accounting
   offices because prior recommendations focused on abnormal balances in the trial
   balances submissions. We will look at all elements of the compilation and
   consolidation process in our subsequent audit of the DFAS process for
   consolidating and compiling the ODO financial statements.

   During the audit we contacted accounting offices where prior recommendations
   were made to disclose abnormal balances in the footnotes to the trial balance
   submissions provided to DFAS Indianapolis. Specifically, we contacted the
   accounting offices in order to identify any internal standard operating procedures
   or guidance received from DFAS Indianapolis regarding the identification,
   disclosure, and correction of abnormal balances on the trial balances. We
   performed this audit from August 2005 through March 2006 in accordance with
   generally accepted government auditing standards.

   Use of Computer-Processed Data. We used trial balance submissions from the
   accounting offices, DD Forms 1176 generated by the Budget Execution Reports
   Division, PBA reports and trial balances generated from CLRS, and financial data
   provided from the Defense Departmental Reporting System to determine the
   existence of abnormal balances in the financial data supporting the ODO financial
   statements. However, we did not verify the processes used to prepare these
   documents or validate or refute the validity of the amounts reported. We
   reviewed procedures directly related to the abnormal balances included in the trial
   balance submissions. In addition, we reviewed the processes used by the
   accounting offices and DFAS Indianapolis to identify and disclose those
   abnormal balances in the trial balance submissions and in the notes to the ODO
   financial statements, respectively.
   Use of Technical Assistance. The audit team consulted with Quantitative
   Methods Division personnel regarding the application of materiality used by
   DFAS Indianapolis when identifying and disclosing abnormal balances.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Financial Management high-risk area.



                                       22
Appendix B. Prior Coverage
    During the last 7 years, the DoD IG has issued several reports discussing
    abnormal balances in the financial statements for the ODO. Unrestricted DoD IG
    reports can be accessed at http://www.dodig.mil/audit/reports.


DoD IG
    DoD IG Report No. D-2004-0118, “Army General Fund Controls Over Abnormal
    Balances for Field Accounting Activities,” September 28, 2004

    DoD IG Report No. D-2002-0096, “Major Deficiencies in Financial Reporting for
    Other Defense Organizations-General Funds,” May 31, 2002

    DoD IG Report No. D-2002-0038, “Financial Reporting for the Other Defense
    Organizations-General Funds at the Defense Finance and Accounting Service San
    Antonio,” January 14, 2002

    DoD IG Report No. D-2001-0116, “Compilation of the FY 2000 Financial
    Statements for Other Defense Organizations-General Funds,” May 8, 2001

    DoD IG Report No. D-2001-0049, “Abnormal General Ledger Account Balances
    for Other Defense Organizations Reported by DFAS Cleveland,”
    February 13, 2001

    DoD IG Report No. D-2001-0048, “Financial Reporting for Other Defense
    Organization at the Defense Agency Financial Services Accounting Office,”
    February 9, 2001

    DoD IG Report No. D-2000-0153, “Compilation of the FY 1999 Financial
    Statements for Other Defense Organizations-General Funds,” June 23, 2000

    DoD IG Report No. D-1999-0191, “Compilation of the FY 1998 Financial
    Statements for Other Defense Organizations,” June 21, 1999

    DoD IG Report No. D-1999-0039, “Internal Controls and Compliance with Laws
    and Regulations for the FY 1998 Financial Statements of Other Defense
    Organizations,” April 2, 1999




                                      23
Appendix C. Other Defense Organizations
Data from Other Defense Organizations* compiled and consolidated at DFAS Indianapolis
 1. American Forces Information Service
 2. Building Maintenance Fund, Defense
 3. Chemical Biological Defense Program
 4. Civilian Military Program
 5. Counter Intelligence Field Activity
 6. Court of Appeals of the Armed Forces
 7. Defense Acquisition University
 8. Defense Advanced Research Projects Agency
 9. Service Medical Activity
10. Defense Information Systems Agency - General Funds
11. Defense Intelligence Agency
12. Defense Legal Services Agency
13. Defense Prisoner of War/ Missing Persons Office
14. Defense Security Cooperation Agency
15. Defense Technology Security Agency
16. Defense Threat Reduction Agency
17. DoD Component Level Accounts
18. DoD Education Activity
19. Emergency Response Fund, Defense
20. Homeowners Assistance Fund, Defense
21. Iraqi Freedom Fund
22. Joint Chiefs of Staff
23. Military Housing Privatization Initiative
24. Missile Defense Agency
25. National Defense University
26. National Geospatial - Intelligence Agency
27. National Security Agency
28. Office of Economic Adjustment
29. Office of the Inspector General, DoD
30. Office of the Secretary of Defense (OSD)
31. Other "TI-97" funds provided to the Air Force by OSD
32. Other "TI-97" funds provided to the Army by OSD
33. Other "TI-97" funds provided to the Navy by OSD
34. Payments to the Military Retirement Fund
35. Payments to the Medicare-eligible Retiree Health Care Fund
36. Pentagon Force Protection Agency
37. Pentagon Reservation Maintenance Revolving Fund
38. Technical Research Institute
39. TRICARE Management Activity
40. U.S. Special Operations Command
41. Washington Headquarters Services
*
    Other Defense Organizations include agencies, offices, activities, programs, commands, and funds.




                                                                 24
Data from Other Defense Organizations compiled and consolidated at other DFAS centers
1.    Defense Cooperation Account
2.    DoD Education Benefits Fund
3.    Defense Technical Information Center
4.    National Defense Stockpile Transaction Fund
5.    National Security Education Trust Fund
6.    Voluntary Separation Incentive Trust Fund
7.    Defense Commissary Agency
8.    Defense Contract Management Agency
9.    Defense Finance and Accounting Service - General Funds
10.   DoD Human Resources Activity
11.   Defense Security Service
12.   Defense Contract Audit Agency
13.   Defense Logistics Agency General Funds
14    Ready Reserve Mobilization Income Insurance Fund
15.   Host Support for U.S. Relocation Activities




                                                25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis Center
   Director, Defense Finance and Accounting Service Cleveland Center
   Director, Defense Finance and Accounting Service Columbus Center
   Director, Defense Finance and Accounting Service Denver
Director, Defense Information Systems Agency
Director, Defense Threat Reduction Agency
Director, DoD Education Activity
Director, Tricare Management Activity-Aurora
Director, Washington Headquarters Services
Director, White House Communications Agency
President, Uniformed Services University of Health Sciences

Non-Defense Federal Organization
Office of Management and Budget




                                          26
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        27
Defense Finance and Accounting Service
Comments




                      29
30
31
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Marvin L. Peek
Scott S. Brittingham
Kristy M. Schenck
Cheri L. Reiser
Samone N. Devoe
Erin S. Hart
